                                                                                                   I

                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF WESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: I02040012                                                                     Page 1 of 2

                                                                                                   !I
              We received a telephone call from a former biology professor' who told us he had
      information about fraud in NSF's peer review system. When we asked for more specific infohation
      over the telephone, the professor was vague so we asked him to provide specific written information.
       We then began receiving large numbers of voluminous e-mails, which were copied to numerous
      recipients (from whom the professor refused all requests to stop receiving the emails). y e also
      learned that the professor had established a website, which included "NSF" in its domain name and
      the NSF logo at the top of every page, on which he posted his views.2

      In his emails and on his website, the professor (1) repeated and expanded upon his allegadions of
      fraud, while also claiming that (2) NSF had asked him to submit a proposal to NSF to receive
      funding to investigate his fraud allegations, and (3) in coordination with him, we were conducting an
      investigation into his allegations. The last assertion was untrue, because the professor had not yet
      provided any credible information to us that would warrant opening an investigation. We carefully
      reviewed all of the information provided by the professor in his emails and on his website and
      concluded he had provided no credible evidence to support any of his allegations or claims!

      Although the professor's allegations were without substance, we were troubled by the fact that the
      professor used the NSF logo at the top of every one of his web pages, with a graphic image ,copied
      from NSF's website, in a manner clearly intended to convey the impression that his site was
      affiliated with NSF. NSF provides logo graphics on its website for public use, "for use by members
      of the public who wish to provide a link to an NSF website or to acknowledge NSF assistance," but
      the professor's use of the logo was not consistent with this permission. The professor also used the
      logos of the Department of Justice (DOJ) and Department of the Treasury (Treasury), and stated
      repeatedly on his website that hi: represented Treasury, in that his investigation-which he was being
      pursuing at NSF's request in coordination with the NSF OIG as well as DOJ-was being carried out
      pursuant to a contract with Treasury. We wrote to the professor, pointing out to him that there are
      federal statutes prohibiting the use of government sealsAogosto misrepresent government affiliation.
       We emphasized to the professor that we were not trying to attenuate his right under the First
      Amendment of the U.S. Constitution to express his views about NSF, our office, or any other topic.
      And although he was prohibited from using NSF's sealAogo to falsely present himself as affiliated
      with NSF, he was otherwise free to use the sealAogo if he made it clear that he was not afbliated
      with NSF in any way and otherwise complied with applicable law.
                                                                                                   \
                         ,formerly a professor at. -



                         Agent                          Attorney           Supervisor                   ~IGI

  Sign / date

                                                                                             OIG Form 2 (2102)
                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: I02040012                                                                 Page 2 of 2




     When the professor made no substantive change to the misrepresentations on his website, we
     referred the matter to the DOJ Criminal ~ i v i s i o n .DOJ
                                                              ~ contacted the company that hosted the
     professor's website4 and inquired whether the misrepresentations on that site were compliant with
     the company's Content Policy. After reviewing the professor's website and discussing the matter
     with DOJ, the professor, and us, the company shut down the professor's website.          I




            Accordingly, this case is closed.




                         , Esq., Fraud Section, Criminal Division.



                                                                                                  !
